Audit of USAID/Armenia’s Activity Monitoring
System


Audit Report No. B-111-02-002-P

March 14, 2002




                 Budapest, Hungary
U.S. AGENCY FOR
 INTERNATIONAL
  DEVELOPMENT

RIG/Budapest


March 14, 2002


MEMORANDUM

FOR:              Keith E. Simmons, Director, USAID/Armenia
                  Raquel C. Powell, USAID Agreement Officer

FROM:             Nathan S. Lokos, Director of Audit Operations/Budapest

SUBJECT:          Audit of USAID/Armenia’s Activity Monitoring System
                  (Report No. B-111-02-002-P)

This is our final report on the subject audit. In preparing the report, we
considered the comments received from USAID/Armenia on the draft report
and made changes as appropriate. No comments have been received from
the USAID Agreement Officer to date. USAID/Armenia’s comments are
included in Appendix II.

This report contains eight recommendations. Based on the actions taken by
the Mission, we consider that acceptable management decisions have been
reached on Recommendation Nos. 1, 3, 4, 6 and 8. Furthermore, we
consider these Recommendations closed upon issuance of this report. Please
coordinate final action with the Office of Management Planning and
Innovation in USAID/Washington and request closure of those
recommendations.

No management decision has been reached on Recommendation Numbers 2
and 5 which are addressed to the USAID Agreement Officer, and on
Recommendation Number 7 which is addressed to USAID/Armenia.

Please advise within 30 days of actions taken or planned to implement those
recommendations without a management decision. We appreciate the
cooperation and courtesy extended by the Mission to the auditors during this
assignment.



                                                                  Page 1 of 21
Table of
Contents
           Summary of Results                                     3

           Background                                             3

           Audit Objective                                        4

           Audit Findings                                         4

                 Does USAID/Armenia have a monitoring system to
                 ensure proper management oversight of USAID-
                 funded activities?                               4

                 USAID/Armenia’s Mission Order On Program
                 Monitoring And Evaluation Procedures Should
                 Require Periodic Site Visits                     5

                 USAID-Financed Loans to Microenterprises
                 Should Comply With USAID Guidelines              7

                 Performance Indicators Should Be
                 Objective, Clearly Defined and Verifiable        8

                 Subgrant Standard Provisions
                 Should Conform To USAID Guidelines               10

                 The Work Plan Approval
                 Process Should be Strengthened                   12

                 Documentation of Meetings
                 Should be Strengthened                           14


           Management Comments and Our Evaluation                 16

           Appendix I - Scope and Methodology                     17

           Appendix II - Management Comments                      18




                                                                       Page 2 of 21
Summary of
Results       While USAID/Armenia has laid a sound foundation for a viable activity
              monitoring system, certain elements of this system need to be refined and
              strengthened. Specifically, the Mission should: (1) make more periodic
              visits to project sites and ensure appropriate documentation of results (page
              5); (2) establish objective, unambiguous and verifiable performance
              indicators (page 8); (3) strengthen the work plan approval process (page 12);
              and (4) document the results of meetings and discussions with its
              development partners (page 14).

              Additionally, the cognizant USAID/Washington Agreement Officer for a
              certain cooperative agreement1 should: (1) require that USAID’s
              development partner follow USAID guidelines in disbursing loans to
              microenterprises (page 7) and (2) incorporate required USAID standard
              provisions in a sub-grant (page 10).



 Background   Armenia is a small, landlocked, mountainous country situated in the
              Caucasus region of Eurasia and surrounded by Azerbaijan, Georgia, Iran
              and Turkey. It was once among the most prosperous of the former
              republics of the Soviet Union. However, since the break-up of the Soviet
              Union in 1991, Armenia has endured regional conflicts accompanied by
              severe economic decline and energy shortages.

              Since its independence from the former Soviet Union, Armenia has
              emerged as a strategically important country, whose progress towards a
              democratic political order and free market economy is critical to U.S.
              foreign policy interests. USAID/Armenia’s development program, which
              was initiated in 1992, identifies conflict resolution, democracy and human
              rights, and economic/social sector development as the U. S. Government’s
              highest priorities in the country.

              USAID’s development plan for Armenia for fiscal year 2001 identifies the
              following strategic objectives:

              •     Accelerated development and growth of private enterprises;

              •     A more competitive and market-responsive private financial sector;

              •     A more economically sustainable and environmentally sound energy
                    sector;


              1
                  Cooperative Agreement No. PCE-A-00-00-00046-00


                                                                                 Page 3 of 21
                  •     Better informed citizens’ participation in political and economic
                        decision-making;

                  •     Legal systems that better support democratic processes and market
                        reforms;

                  •     Mitigation of adverse social impacts caused by transition from a
                        communist society; and

                  •     Special initiatives and cross-cutting programs.

                  To accomplish the above objectives, USAID/Armenia had obligated funds
                  for activities totaling approximately $186 million and accrued
                  expenditures for those activities totaling approximately $141 million as of
                  June 30, 2001.2 We focused primarily on activities conducted from
                  October 1, 1999 through June 30, 2001.



Audit Objective
                  In accordance with its Fiscal Year 2001 audit plan, the Office of the
                  Regional Inspector General/Budapest performed this audit to answer the
                  following question:

                            Does USAID/Armenia have a monitoring system in place to
                            ensure proper management oversight of USAID-funded
                            activities?

                  Appendix I describes the scope and methodology of the audit.



 Audit Findings   Does USAID/Armenia have a monitoring system to ensure proper
                  management oversight of USAID-funded activities?

                  The audit showed that USAID/Armenia had established an activity
                  monitoring system that generally facilitated management oversight of
                  USAID-funded activities.



                  2
                      According to USAID/Armenia’s June 30, 2001 Grant/Contract/CA Pipeline Analysis




                                                                                           Page 4 of 21
In accordance with USAID directives, the Mission had developed a
performance monitoring plan, defined strategic objectives, and established
performance measures and indicators.

In addition, USAID/Armenia had: (1) issued a mission order on program
monitoring, reporting and evaluation; (2) held weekly meetings with its
development partners to review progress; and (3) designated officials to
manage the Mission’s portfolio of activities.

While the above actions have laid a sound foundation for a viable activity
monitoring system, we believe that certain elements of this system need to
be redefined and strengthened. The following paragraphs describe our
findings and recommendations.


USAID/Armenia’s Mission Order On Program Monitoring And
Evaluation Procedures Should Require Periodic Site Visits

Part of the monitoring process involves collecting information concerning
activity inputs, outputs and processes (e.g. progress reporting, financial
reporting, meetings with development partners, etc.). Site visits are an
important component of monitoring, because they provide Mission staff
with the opportunity to: 1) personally observe implementation of the
activity and 2) verify information being reported by contractors and
grantees. This type of first hand observation and verification can provide
Mission staff with greater insight into their activities, the opportunities
and challenges facing those activities and the relevance and reliability of
information being reported by development partners. It can also help
them satisfy USAID Automated Directives System (ADS) requirements
such as verifying compliance with USAID marking requirements and the
performance of end-use checks on USAID-financed commodities.

ADS 203.3.6.6 recognizes the importance of site visits by stating, among
other things, that such visits can assist USAID operating units in: (1)
determining the reliability of program accomplishments reported by
implementing partners, and (2) facilitating assessment of progress by
comparing central office records with those kept at field locations.

Despite the importance of site visits, USAID/Armenia’s Mission Order
addressing program monitoring and evaluation does not require that
Mission’s Activity Officers conduct periodic site visits of their activities.
While we believe that this omission was an oversight, we also believe that
this omission increases the risk that periodic site visits will not occur. As
a result, the Mission has faced and continues to face heightened risk
concerning the success of its $186 million in activities.




                                                                  Page 5 of 21
RIG/B auditors conducted a site visit of the headquarters of the
Association of Accountants and Auditors of Armenia sponsored by
USAID/Armenia.

Mission Activity Officers interviewed stated that they had conducted site
visits. Some contractors, grantees and sub-recipients did confirm regular
visits by Activity Officers, but others indicated that such visits were rare
or never took place. A review of the Mission’s activity monitoring files
showed that documentation of such visits was extremely limited.

We believe a requirement for site visits should be formalized as part of the
Mission’s management control system. In addition, we also believe that
USAID/Armenia’s Mission Order should provide guidance to staff
concerning the type of information to be gathered and verified during site
visits. Finally, we believe it is important to document site visits in order
to memorialize the observations, discussions and decisions made during
such visits.

In their response to our draft audit report, USAID/Armenia concurred with
our finding, and acknowledged that while site visits were made in most
cases, there was a need to increase their frequency and provide appropriate
documentation. They further stated that USAID/Armenia’s Mission Order
No.1033 had been revised to: (1) require more site visits, (2) specify the
type of information to be gathered and verified, and (3) emphasize the
need for proper documentation. Therefore, Recommendation No.1 below
is considered resolved upon issuance of this report.

       Recommendation No. 1: We recommend that the
       Mission Director, USAID/Armenia, revise its mission
       order on program monitoring and evaluation to: (1)
       require that Activity Officers increase the frequency of
       periodic site visits to mission activities; (2) include


                                                                   Page 6 of 21
       guidance concerning the type of information to be
       gathered and verified during site visits; and (3) require
       that such visits be properly documented and retained in
       the activity files.


USAID-Financed Loans to Microenterprises
Should Comply With USAID Guidelines

ADS Chapter 219 defines microenterprises as firms with ten or fewer
employees, including the microentrepreneur and any family workers
(including unpaid workers). We noted that in the Mission’s
Microenterprise Innovation activity implemented by Save the Children
(SAVE), the sub-grantee, MDF Kamurj, does collect information
concerning the number of workers retained by loan recipients. However,
MDF Kamurj has not been using that information as a screening device to
ensure that loans are only given to recipients with 10 or fewer workers.




RIG/B auditors visit an orientation and training session for women
micro-entrepreneurs, under a USAID-funded program in Vanadzor,
Armenia.

Consequently, since the above definition of microenterprise has not been
applied in granting loans, neither SAVE, MDF Kamurj, nor the Mission
knows whether the $1.2 million in USAID-financed loans disbursed under
the program, as of March 31, 2001, have been limited to USAID’s target
population. We believe that this situation arose because SAVE’s Chief of
Party and the Executive Director of MDF Kamurj were unaware of
USAID’s definition of “microenterprise.”




                                                              Page 7 of 21
In our opinion, USAID-financed loans to microentpreneurs should be
limited to businesses that meet USAID’s definition of a microenterprise.
Accordingly, we are making the following recommendation.

       Recommendation No. 2: We recommend that the
       cognizant USAID Agreement Officer require that Save
       the Children/MDF Kamurj restrict future
       microenterprise loans to enterprises employing ten or
       fewer workers.


Performance Indicators Should Be
Objective, Clearly Defined and Verifiable

ADS Chapter 203.3.6.5 states that performance indicators must be direct,
objective, unambiguous and adequate. However, in several instances,
performance indicators established for USAID/Armenia’s development
activities did not satisfy those criteria. They were in fact ambiguous and
subject to varying interpretations. As a result, we believe those indicators
are unlikely to provide realistic measurements of performance. This
situation arose because the Mission’s monitoring system did not assess the
adequacy of activity-level indicators.

Performance indicators are at the heart of a performance monitoring
system. They define the data to be collected to measure progress so that
actual results achieved over a period of time may be compared with
planned results. Thus, the indicators are an indispensable management
tool for making performance-based decisions about program activities.

USAID guidance on performance monitoring and evaluation lists several
criteria for assessing performance indicators. Among other
characteristics, an indicator should be objective, unambiguous and
reliable. In other words, the definition should be precise enough to ensure
that different people at different times, given the task of collecting data for
an indicator, would collect identical types of data.

In several instances, performance indicators established for
USAID/Armenia’s development activities did not satisfy the above
criteria. For example:

•   The Agribusiness SME Market Development (Agribusiness) activity
    was using a performance indicator, “number of firms assisted”.
    However, the term “assisted” is ambiguous and has not been clearly
    defined. For example, USAID’s Agribusiness contractor may work
    continuously with one firm for several months, providing a variety of
    technical and other assistance. On the other hand, the contractor may



                                                                    Page 8 of 21
    only meet with another firm for a much shorter period of time and
    offer some general, macro-level ideas. In the absence of a precise
    definition, each of these entities could be a “firm assisted” and would
    be (erroneously) considered to be contributing equally towards
    meeting the required target. Similarly, another indicator for this
    activity is “number of trade shows facilitated.” Again, there was no
    explanation as to what constituted the “facilitation” of a trade show.

•   In an activity financed under the SME Development Program
    implemented by the International Executive Service Corps (IESC),
    performance indicators in respect of sales were: “increase in sales of
    100%” and “increased market share of 50%.” However, there were
    no explanations as to what period of time the sales related to, the total
    number of firms that were in the market, and whether the market
    comprised the entire country of Armenia or just the city of Yerevan.

•   The Agribusiness Development Project, implemented by
    ACDI/VOCA, reported that USAID-funded cattle breeding and berry
    production projects resulted in 240 and 300 replications, respectively.
    However, according to the ACDI/VOCA Chief of Party, these figures
    were based on estimates and, therefore, not verifiable.

Because of the ambiguity and lack of verifiability of the above indicators,
we believe that they are unlikely to provide realistic measurements of
performance for those USAID-financed activities.

The above problems arose primarily because USAID/Armenia’s
performance monitoring system did not ensure that performance indicators
were developed in accordance with the criteria established by USAID
guidelines. We therefore believe that the Mission should 1) establish a
procedure to review its activity level indicators and, where necessary,
make appropriate revisions so that those indicators are objective,
unambiguous, operationally precise and verifiable, and 2) conduct such a
review on the current performance indicators for its activities.

In their response to our draft audit report, the Mission stated that it has
established procedures for periodically reviewing the performance
indicators. In addition, it plans to complete a review of its existing
performance indicators over the next several months and take action to
ensure compliance with USAID guidelines.




                                                                    Page 9 of 21
The above actions address the recommendations stated below, which are
considered resolved upon issuance of this report.

       Recommendation No. 3: We recommend that the
       Mission Director, USAID/Armenia, establish
       procedures to review the performance indicators of the
       activities in its portfolio which clearly define the criteria
       to ensure that those indicators are objective,
       unambiguous and verifiable in accordance with USAID
       guidelines.

       Recommendation No. 4: We recommend that Mission
       Director, USAID/Armenia, 1) conduct a review of the
       performance indicators of the activities in its portfolio
       and 2) refine those indicators wherever appropriate so
       as to make them objective, unambiguous and verifiable
       in accordance with USAID guidelines.


Subgrant Standard Provisions
Should Conform To USAID Guidelines

USAID’s Mandatory Standard Provisions for U.S., Nongovernmental
Recipients states that subawards to non-U.S. organizations should include
USAID’s Standard Provisions for Non-US Nongovernmental Grantees.
One subgrant to a Foreign organization that we reviewed included the
standard provisions for U.S. organizations, rather than the required
provisions for non-U.S. organizations. As a result of this error, the
appropriate provisions have not been incorporated in the subgrant.
Consequently, future administrative, financial or technical problems may
arise for either USAID/Armenia or its U.S. development partner.

One way that USAID implements its assistance is through grants to U.S.,
non governmental organizations (NGOs). USAID guidance requires that
such grants contain USAID’s Standard Provisions for U.S., Non
governmental Recipients (U.S. Provisions), which specify many of the
rules and regulations applicable to the grant.

In some cases, these U.S. grantees, in turn, give sub-grants to non-U.S.
NGOs. Many of the rules and regulations applicable to non-U.S. NGOs
are codified in USAID’s Standard Provisions for non-U.S., Non
governmental Recipients (Foreign Provisions).

For example, the requirement for audits—and how that requirement is to
be satisfied—is addressed in both the U.S. NGO and non-U.S. NGO




                                                                Page 10 of 21
standard provisions. However, those requirements differ depending on
whether an NGO is a U.S. or non-U.S. organization.

USAID executed a cooperative agreement with Save the Children
(SAVE), a U.S. NGO, to implement USAID/Armenia’s Microenterprise
Innovation activity. The Agreement Officer appropriately included the
U.S. Provisions in SAVE’s grant. Since this activity would require sub-
grants to non-U.S. NGOs, USAID’s agreement with SAVE also
appropriately included the requirement that SAVE incorporate the Foreign
Provisions in any sub-grants to non-U.S. NGOs. In addition, SAVE’s
cooperative agreement also included a requirement that sub-grants to non-
U.S. NGO’s incorporate an audit clause that would help SAVE meet its
audit obligations under its agreement with USAID.

However, despite these requirements, our review of SAVE’s sub-grant to
the non-U.S. NGO (MDF Kamurj) indicated that SAVE had not included
the required Foreign Provisions, but had incorporated the U.S. Provisions
instead. We believe this omission was an oversight by SAVE.

As a result of this oversight, MDF Kamurj is not bound to comply with
the relevant USAID standard provisions (the Foreign Provisions). This
may increase the risk of future administrative, financial or technical
problems.

We believe that SAVE should modify its sub-grant agreement to include
the appropriate standard provisions, including a modified audit
requirement. Also, it would be prudent for the Mission to request that its
U.S. grantees review their Non-U.S. sub grants and take appropriate
actions to ensure that the standard provisions have been incorporated.

In discussing this finding, USAID/Armenia officials noted that the
cooperative agreement with SAVE was negotiated by the Office of
Procurement in USAID/Washington. They also pointed out that the
Mission’s oversight responsibility of this sub-award was limited.

We concur with the Mission’s comments and recognize that the Mission’s
monitoring was not at fault. However, we believe that USAID will avoid
potential problems by requiring that SAVE ensure its sub-grant
incorporates the required audit clause. Moreover, we believe it would be
useful for the Mission to confirm the compliance of its other grantees.
Accordingly, we are making the following recommendations.

In their response to our draft audit report, the Mission stated that it had
issued a letter to its U.S. grantees requesting them to review their grant
agreements to ensure that their sub-grants incorporate the required
provisions.



                                                                   Page 11 of 21
Based on the aforementioned actions, Recommendation No. 6 is
considered resolved upon issuance of this report.

       Recommendation No. 5: We recommend that the
       Agreement Officer require that Save the Children
       amend its sub-grant to MDF Kamurj to incorporate
       USAID’s Standard Provisions for Non-U.S.
       Nongovernmental Organizations, including an
       appropriate provision concerning audit.

       Recommendation No. 6: We recommend that the
       Mission Director, USAID/Armenia require the
       Mission’s Contracting Officer to issue a notice
       requesting that the Mission’s U.S. grantees: (1) review
       their grant agreements to determine which standard
       provisions must be included in sub-grants; (2) ensure
       that the sub-grants incorporate the appropriate
       standard provisions; and (3) make any required
       revisions to their sub-grants.


The Work Plan Approval
Process Should be Strengthened

USAID contracts and cooperative agreements contain provisions requiring
that contractors and development partners submit periodic work plans for
USAID’s review and approval. Despite this requirement, we found that
the Mission did not have approved annual work plans for several of the
contracts or cooperative agreements that we reviewed, even though such
plans were required by the provisions of those contacts and agreements.
This occurred because: 1) Mission activity managers were not all aware of
their responsibility to approve activity work plans and 2) the Mission’s
activity monitoring system did not require that annual work plans be
approved. In the absence of approved work plans, USAID/Armenia has
less assurance that the proper activities are being implemented and that
progress can be realistically assessed.

USAID contracts and cooperative agreements contain provisions requiring
that contractors and development partners submit periodic work plans for
USAID’s review and approval. In addition, Federal Government
standards for internal control state that, among other things, internal
controls, transactions and other significant events need to be clearly
documented and that documentation should be readily available for
examination.




                                                              Page 12 of 21
Our audit showed that for several contracts or cooperative agreements,
processing and documentation of work plans should be strengthened. For
example:

•   For the SME Finance Program implemented by Shorebank, the annual
    work plan for fiscal year 2001 was in draft form. However, there was
    no documentation indicating whether or not the plan was finalized and
    approved by USAID.

•   Price WaterhouseCoopers submitted a work plan for the Capital
    Markets Development Program, but there was no evidence that that
    plan was approved by USAID.

•   For the Tax/Fiscal Reform Program implemented by KPMG, a work
    plan was in the file for the tax component—but not for the fiscal
    component—of the program. According to the Mission’s Activity
    Officer, the fiscal component work plan may have been submitted by
    KPMG to USAID/Washington, but the Mission’s activity monitoring
    files contained no evidence supporting this assertion.

In our opinion, these conditions occurred because: 1) Mission activity
managers were not all aware of their responsibility to approve activity
work plans and 2) the Mission’s activity monitoring system did not
require that annual work plans be formally approved. Additionally, based
on our observation and inquiries, we believe that contributing factors
included (1) time constraints on USAID activity managers, (2) a lower
priority assigned to administrative tasks, and (3) a general lack of attention
or realization of the importance of documenting essential actions.
Furthermore, Mission officials pointed out that management
responsibilities for the activities cited above were vested in Cognizant
Technical Officers (CTO), based in USAID/Washington.

In their response to our draft audit report, the Mission did not agree with
this finding. They stated that: (1) it was the responsibility of the
Washington-based CTOs to approve work plans in the examples cited
above, (2) the Mission was not shown to have failed to ensure receipt of
work plans where it had cognizance, and (3) appropriate revisions have
been made in its Mission Order requiring that activity work plans and
changes thereto are processed in a timely manner and approved in writing.
They requested that the recommendation made below be deleted.

However, we believe that without approved and timely work plans,
USAID/Armenia has less assurance that activities being implemented are
those that were approved by USAID and would accomplish the planned
results. Moreover, since work plans normally establish interim
performance targets, the absence of such plans and targets may hinder the



                                                                  Page 13 of 21
assessment of contractor/grantee performance for activities in the
Mission’s portfolio.

USAID/Armenia, therefore, shares responsibility with cognizant
Washington-based officials to ensure that all work plans are received and
finalized in a timely manner. Accordingly, we are retaining
Recommendation No.7.

       Recommendation No. 7: We recommend that the
       Mission Director, USAID/Armenia, coordinate with
       cognizant Mission and Washington-based officials to
       ensure that all activity work plans and changes thereto
       be processed in a timely manner and approved in
       writing.


Documentation of Meetings
Should be Strengthened

We determined from our observation, interviews and inquiries that the
Mission’s Activity Officers were in regular contact with their
development partners to monitor progress of program activities. Also,
those officials frequently used E-mails and telephone to contact
implementing organizations. However, these Mission officials rarely
documented the proceedings of those meetings, essential actions taken or
agreements reached.

Internal control standards for the Federal Government, established by the
General Accounting Office, require that significant events need to be
clearly documented and that that documentation should be readily
available for examination. Such documentation, like the documentation of
meetings, is an important monitoring tool that helps preserve institutional
memory and strengthens the Mission’s ability to take timely corrective
actions. Any omission by the Mission to document such actions is likely
to have an adverse effect on its monitoring of its program activities.

According to Mission staff, meetings were not properly documented
because of time constraints on USAID activity managers and a lower
priority assigned to administrative tasks. We also believe that a general
lack of attention or realization of the importance of documenting essential
actions was a contributing factor.

In their response to our draft audit report, the Mission stated that it has
incorporated guidance in its Mission Order requiring activity officers to
document substantive communications with implementing partners and




                                                                  Page 14 of 21
specifying the type of documentation to be maintained in the officials
files.

The above actions address the recommendation made below, which is
considered resolved upon issuance of this report.

       Recommendation No. 8: We recommend that the
       Mission Director, USAID/Armenia, require that activity
       officers document the results of meetings and retain
       that documentation in the Mission’s activity files.




                                                               Page 15 of 21
Management
Comments and     In their response to our draft audit report, USAID/Armenia, with one
Our Evaluation   exception, generally agreed with our findings and recommendations. They
                 stated that the report was fair and balanced and would make a positive
                 contribution to USAID’s development efforts in Armenia.

                 In addition, the Mission provided detailed information and documentation to
                 highlight the various corrective actions they have taken to address our
                 recommendations. USAID/Armenia’s comments on the draft report and our
                 assessments of those comments are summarized on pages 5 to 15 of this
                 report. The full text of their comments is included in Appendix II.

                 Based on the actions taken by the Mission, we consider that acceptable
                 management decisions have been reached on Recommendation Nos. 1, 3, 4,
                 6 and 8. Furthermore, we consider these recommendations closed upon
                 issuance of this report. We determined that an acceptable management
                 decision has not been reached on Recommendation Number 7 for reasons
                 stated on pages 12 to 14 of this report.

                 Recommendation Numbers 2 and 5 are addressed to the USAID Agreement
                 Officer whose response has not been received to date. Therefore acceptable
                 management decisions have not been reached on those recommendations.




                                                                                 Page 16 of 21
                                                                                 Appendix I



Scope and     Scope
Methodology   The Office of Regional Inspector General/Budapest conducted an audit, in
              accordance with generally accepted U. S. Government auditing standards to
              determine whether USAID/Armenia had a monitoring system to ensure
              proper management oversight of USAID-funded activities.

              The audit focused primarily on activities conducted from October 1, 1999
              through June 30, 2001. We reviewed 15 activities with obligations and
              expenditures totaling approximately $74.6 million and $63.7 million,
              respectively. Those activities related to USAID/Armenia’s Strategic
              Objective Number 1.3, which focuses on growth of the private sector.

              The audit was conducted from May 8, 2001 to October 25, 2001 at the
              offices of USAID/Armenia and its development partners in Yerevan,
              Armenia, and included site visits to various locations in that country. We
              also reviewed the Mission’s management controls including, but not limited
              to: (1) USAID/Armenia’s FY2000 submission under the Federal Manager’s
              Financial Integrity Act (FMIFA), (2) the mission order on Program
              Monitoring and Evaluation Procedures, (3) the Performance Monitoring
              Plan, and (4) the monitoring practices of Mission activity managers.

              Methodology

              In answering the audit objective, we reviewed pertinent documentation
              including, but not limited to: (1) USAID/Armenia’s strategic planning,
              program implementation and financial documents; (2) external evaluations
              and assessments of program activities; and (3) progress and activity
              reports prepared by Mission and contractor officials.

              We also determined the Mission’s compliance with applicable criteria
              contained in: (1) ADS Chapters 201, 202, and 203; (2) contract and grant
              agreements; and (3) USAID/Armenia Mission Orders.

              Furthermore, we interviewed cognizant Mission, host country and
              contractor officials, as well as some of the intended beneficiaries to assess
              the impact and effectiveness of USAID/Armenia’s monitoring.

              Finally, we conducted field trips to selected activity sites to observe
              project implementation and assess progress towards accomplishment of
              planned results and strategic objectives.

              Because of the nature of this audit and the restricted size of our sample,
              every deficiency noted was considered to be a reportable condition.


                                                                                 Page 17 of 21
                                                                                    Appendix II



Management
Comments




                                 USAID/ARMENIA MEMORANDUM
                                           Office of the Mission Director




 TO:             Nathan Lokos, RIG/Budapest

 FROM:           Keith E. Simmons, USAID/Armenia

 DATE:           March 7, 2002

 SUBJECT:        Audit of USAID/Armenia’s Activity Monitoring System -
                 Mission Comments on the Draft Audit Report

 Thank you for the opportunity to review the subject draft report. The Mission generally agrees
 with the findings and recommendations. In most cases corrective measures have already been
 established to address these recommendations and we have included documentation with this
 memo in support of those actions taken or planned to be taken. We understand that the findings
 and related recommendations No. 2 and No. 5 are to be addressed by the cognizant CO/CTO in
 Washington.

 The mission would like to point out that many of the examples cited by the auditors were cases
 clearly under the responsibility of Washington based COs/CTOs. In these cases, although the
 mission does perform some oversight responsibilities, it is the responsibility of Washington to
 carry out project activities such as approving work plans. In your section entitled: “The Work
 Plan Approval Process Should be Strengthened”, you site three examples. In each of these
 examples, a Washington-based CTO was responsible for review and approval of work plans.

 We have some minor concerns with some of the language and request you consider changes as
 identified below.

 Recommendation No. 1: We recommend that the Mission Director, USAID/Armenia,
 revise its mission order on program monitoring and evaluation to: (1) require that
 Activity Officers conduct periodic field site visits to mission activities; (2) include guidance



                                                                                       Page 18 of 21
                                                                                       Appendix II

concerning the type of information to be gathered and verified during site visits; and (3)
require that such visits be properly documented and retained in the activity files.

We suggest that the language of the recommendation be changed to read:

…(1) require that activity officers increase the frequency of periodic field site visits to mission
activities;…”

The mission believes the auditors found, with limited exceptions, that site visits were being
carried out routinely, but in certain cases they felt that more frequent visits were in order. More
importantly, we believe the auditors’ primary intention was to ensure that more substantive
evidence of visits was documented as is covered in section (3) of the recommendation.

Consequently, if you agree to the above-suggested change, we request that the language in the
section entitled “Summary of Results” be modified to state:

“…should: (1) increase the instance of periodic site visits and ensure appropriate documentation
of results…”

The Mission believes it has fully addressed the auditors’ concerns regarding
recommendation No. 1 in its revised Mission Order on Program Monitoring and Evaluation
(MO No.1003). Section IV of the Mission Order requires more regular site visits, includes
guidance on the type of information to be gathered and verified, and requires that site visits
be properly documented. Attachment 3 provides a sample format for trip reports.

Recommendation No. 3: We recommend that the Mission Director, USAID/Armenia,
establish a procedure to 1) review the performance indicators of the activities in its
portfolio and 2) refine those indicators wherever appropriate so as to make them
objective, unambiguous and verifiable in accordance with USAID guidelines.

and

Recommendation No. 4: We recommend that Mission Director, USAID/Armenia, 1)
conduct a review of the performance indicators of the activities in its portfolio and 2)
refine those indicators wherever appropriate so as to make them objective, unambiguous
and verifiable in accordance with USAID guidelines.

We would like to suggest that you eliminate section 2) of recommendation No. 3. This section
appears to be a duplication of section 2) in recommendation No. 4, with no value added. We
suggest recommendation No. 3 read as follows:

Recommendation No. 3: We recommend that the Mission Director, USAID/Armenia,
establish a procedure to review the performance indicators of the activities in its portfolio
and that the procedure clearly specify criteria to ensure indicators are objective,
unambiguous and verifiable in accordance with USAID guidelines.




                                                                                          Page 19 of 21
                                                                                   Appendix II

The Mission agrees with this recommendation and will provide RIG/Budapest with our newly
established procedure for periodic review of indicators. Additionally, the mission has
established a plan and timeframe for a complete review of existing performance indicators to be
conducted over the next several months. The procedure is described in the Attachment 7 of
Mission Order No.1003. Attachment 6 provides guidance on performance indicators and data
quality. The plan is provided for your review separately.

Recommendation No. 6: We recommend that the Mission Director, USAID/Armenia
coordinate with the Regional Contracting Officer to issue a notice requesting that the
Mission’s U.S. grantees: (1) review their grant agreements to determine which standard
provisions must be included in sub-grants; (2) ensure that the sub-grants incorporate the
appropriate standard provisions; and (3) make any required revisions to their sub-grants.

The Mission believes this recommendation has been addressed. The USAID/Armenia
Contracting Officer has issued a letter to the Mission’s U.S. grantees requesting them to review
their agreements and ensure that the subgrants incorporate the appropriate standard provisions.
The letter is included in our submission to RIG/Budapest. Please, modify the recommendation
to indicate the USAID/Armenia Contracting Officer.

Recommendation No. 7: We recommend that the Mission Director, USAID/Armenia,
require that all activity work plans and changes thereto be processed in a timely manner
and approved in writing.

The Mission does not agree with this finding. As pointed out in paragraph 2 above, it was the
responsibility of the Washington-based CTO to approve work plans in the examples cited by the
auditors. In regard to the Tax/Fiscal Reform Program implemented by KPMG, the contract
only required a work plan for tax administration component of the program which was
submitted well before CO/CTO responsibility transferred to the Mission.

The mission certainly agrees that it has responsibility to ensure work plans and other
implementation actions are reviewed and approved by the mission staff where it has CTO
authority, and when appropriate. To strengthen the work plan approval process, we further
revised the Mission Order on Program Monitoring and Evaluation to ensure that all required
activity work plans and changes thereto are processed in a timely manner and approved in
writing.

However, since the Mission was not shown to have failed to ensure receipt of work plans where
it had cognizance, we believe the recommendation should be eliminated in its entirety.

If you proceed with including this recommendation, we suggest you modify your paragraph
starting: “In our opinion, these occurred because:…”. Please include, as a cause, a section
stating “management responsibility for certain of the activities reviewed was vested in
Washington-based CO/CTOs”.




                                                                                      Page 20 of 21
                                                                                   Appendix II

Recommendation No. 8: We recommend that the Mission Director, USAID/Armenia,
require that activity officers document the results of meetings and retain that
documentation in the Mission’s activity files.

Section IV of Mission Order No.1003 requires that activity officers document substantive
communications with implementing partners. Attachment 2 of the Mission Order provides
specific guidance on the type of documentation to be maintained in the official files.

Finally, we would like to thank the RIG auditors for their collaborative and supportive approach
during execution of this audit. We believe that the draft report is fair and balanced and will
provide a positive contribution to our development effort here in Armenia.




                                                                                      Page 21 of 21
